                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                         January 22, 2010



MEMORANDUM TO:             R. William Borchardt
                           Executive Director for Operations



FROM:                      Stephen D. Dingbaum /RA/
                           Assistant Inspector General for Audits


SUBJECT:                   MEMORANDUM REPORT: AUDIT OF THE NUCLEAR
                           REGULATORY COMMISSION’S USE OF ELECTRONIC
                           SUBMISSIONS FOR COMBINED LICENSE
                           APPLICATIONS (OIG-10-A-08)


The Office of the Inspector General (OIG) conducted this audit to evaluate the Nuclear
Regulatory Commission’s (NRC) use of electronic submissions in the Office of New
Reactors (NRO), with a specific focus on Combined License Applications (COLA), and
its applicability to other NRC activities such as in the Office of Nuclear Reactor
Regulation. OIG found that the electronic submissions process for COLA documents
fulfills its intended purpose, and that NRC users and public stakeholders were generally
satisfied with it. Although OIG makes no recommendations, auditors identified issues
for consideration to enhance the electronic submissions process.


BACKGROUND

NRC issues licenses for construction and operation of nuclear power plants. The
agency last issued an operating license in 1996; however, there is growing interest
among U.S. utilities in nuclear power. Since 2007, NRC has received 18 applications to
construct 28 new reactors.
      Audit of the Nuclear Regulatory Commission’s Use of Electronic Submissions for Combined License Applications



Reactor license applications—generally referred to as COLAs—are large document
packages that NRC must review to ensure that each applicant meets agency standards
for building and operating nuclear power reactors. To reduce the logistical burden
associated with paper document processing, applicants are to submit COLA documents
using electronic media, such as compact discs (CD) or digital versatile discs (DVD). 1

NRC’s Office of Information Services (OIS) manages the processing of COLA
documents submitted to NRC. After initial receipt of an applicant’s CD/DVD at the
Document Control Desk, contractor personnel2 at the Document Processing Center
(DPC) review information contained on the CD/DVD to ensure that it is properly
formatted. If the applicant’s submission passes this review, the documents can be
uploaded to NRC’s Agencywide Documents Access and Management System
(ADAMS), the agency’s main electronic recordkeeping system. If a submission does
not pass this review, NRC staff notify the applicant so that the document(s) can be
revised and resubmitted. Figure 1 illustrates this process.

Figure 1: Processing of COLA documents submitted to NRC on electronic media.




    Electronic          Document                     Document                          Application Review by
    Application          Control                 Processing Center                           NRC Staff
                          Desk

      CD                                           Quality control                            Applicant
                                                   Document profiling                         qualifications
      or                   Document
      DVD                                          Official Agency                            Design
                           intake
                                                   Records in ADAMS                           Safety
                                                   Notify NRC                                 Operations
                                                   reviewers                                  Environmental
                                                                                              impact

Source: OIG analysis.




1
 CDs and DVDs enable applicants to submit files that are too large to transmit via the Internet.
2
 NRO document review and processing is a subtask within a broader ADAMS support contract. In the
2008-2009 base year of this contract, the value for this subtask was approximately $71,500. An OIS
project manager oversees the contract.



                                                        2
    Audit of the Nuclear Regulatory Commission’s Use of Electronic Submissions for Combined License Applications



PURPOSE

The audit objective was to evaluate NRC’s use of electronic submissions in NRC, with a
specific focus on COLA documents, and its applicability to other NRC activities such as
in the Office of Nuclear Reactor Regulation.


RESULTS

Auditors evaluated NRC’s electronic submissions process for COLAs. This process
meets its intended purpose of reducing the logistical burden associated with paper
documentation. NRC and public stakeholders were generally satisfied with the
electronic submissions process for facilitating COLAs. Furthermore, although some
electronic submissions undergo delays in the ADAMS upload process, such delays
reportedly do not prevent applicant personnel from proceeding with their work on
applications. Further, as permitted by internal agency guidance,3 agency staff use their
own working copies of COLA documents before they are uploaded to ADAMS.
Although no recommendations are associated with this report, OIG identified several
issues for the agency to consider.


Issues for Consideration

       Offer more hands-on training. Several applicant personnel said that they had
        become more familiar with NRC’s standards and processes over time, and had
        learned much through early trial and error. However, one said NRC’s initial
        hands-on training was helpful and recommended that NRC offer it again.

       Re-evaluate “pre-flight” criteria.4 Applicant personnel and one NRC staff
        questioned the value of “pre-flight” criteria that applicants are supposed to follow
        in preparing their submissions. One applicant employee mentioned instances in
        which documents apparently met the “pre-flight” standards, but were still returned
        to them by the DPC for revision. Another applicant employee noted an instance
        in which a document did not meet “pre-flight” criteria but was uploaded into
        ADAMS anyway.

       Develop a means for formatting non-PDF documents. NRC guidance states
        that COLA documents should be formatted using Portable Document Format
        (PDF) software. However, some information is processed using non-PDF
        software unique to technical fields such as meteorology. Some historical
        information must be transferred from microfiche, which can present formatting

3
  Management Directive 3.53, “NRC Records and Document Management Program,” revised March 15,
2007.
4
  The “pre-flight” check is a preliminary automated review of COLA submissions to ensure the documents
meet NRC standards for file size and other formatting characteristics. Following “pre-flight,” DPC staff
perform a more extensive manual quality control review of documents before uploading them to ADAMS.

                                                      3
   Audit of the Nuclear Regulatory Commission’s Use of Electronic Submissions for Combined License Applications



       problems requiring the applicant to copy the microfiche onto paper and submit
       hard copies in lieu of CD/DVD.

      Establish a single point of contact for applicants. NRO project managers and
       OIS staff are involved in processing COLA submissions, but there is no single
       point of contact to help applicants resolve problems with their submissions.

       Several applicant personnel said individual NRC staff were helpful; however, one
       reported experiencing poor communication among NRC organizations and
       difficulty in contacting OIS staff. One NRO project manager cited similar
       communication problems with OIS and recommended establishing a single point
       of contact as a solution.


AGENY COMMENTS

NRC staff were given an opportunity to review a draft version of this report, and
provided editorial suggestions. This final report incorporates revisions made, where
appropriate, as a result of the agency’s suggestions.


SCOPE AND METHODOLOGY

To understand NRC’s policies and procedures for processing documents submitted
electronically by the public, auditors interviewed staff from OIS, the Office of the
Secretary, the Office of the General Counsel, and the Atomic Safety and Licensing
Board Panel. Auditors reviewed pertinent NRC guidance as well as the Government
Paperwork Elimination Act. To understand processes unique to new reactor license
submissions, auditors interviewed staff from NRC and the DPC, reviewed NRC’s
electronic submissions guidance for end-users, and reviewed procedures used by DPC
personnel to process new reactor license documents. In addition, auditors reviewed the
contract for these processing services as well as data regarding document processing
volume and contractor performance. To understand end-users’ perspectives on NRC’s
policies and procedures, auditors interviewed personnel representing four electric power
utilities, which, together, have submitted 6 of the 18 new reactor license applications
received by NRC as of September 2009. Further, auditors interviewed a contractor who
prepares applicants’ documents for submission to NRC and a representative from the
Nuclear Energy Institute who had worked with NRC and the nuclear power industry on
an electronic submissions task force.

Internal controls related to the audit objective were reviewed and analyzed. Throughout
the audit, auditors were aware of the possibility or existence of fraud, waste, or misuse
in the program.




                                                     4
   Audit of the Nuclear Regulatory Commission’s Use of Electronic Submissions for Combined License Applications



The work was conducted from July 2009 to October 2009 in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

The work was conducted by Beth Serepca, Team Leader; Paul Rades, Audit Manager;
Levar Cole, Senior Analyst; and Michael Blair, Analyst. We performed the audit work at
NRC headquarters in Rockville, Maryland.




                                                     5
